No. 19-1261
TRENT MICHAEL TAYLOR,
Petitioner,

v.
ROBERT RIOJAS, Sergeant of Corrections Officer,
Individually and in Their Official Capacity; RICARDO
CORTEZ, Sergeant of Corrections Officer, Individually
and in Their Official Capacity; STEPHEN HUNTER,
Correctional Officer, Individually and in Their
Official Capacity; LARRY DAVIDSON, Correctional
Officer, Individually and in Their Official Capacity;
SHANE SWANEY, Sergeant of Corrections Officer,
Individually and in Their Official Capacity; JOE
MARTINEZ,
Respondents.
CERTIFICATE OF COMPLIANCE

Pursuant to Supreme Court Rule 33.1(h), I certify
that the Reply Brief for Petitioner contains 2,996
words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
/s/ Kelsi Brown Corkran
Counsel of Record

